U.S. Department of Labor                Office of Inspector General
                                        Washington, DC. 20210




December 14, 2009


Mr. Jesse Arbogast
Director of Finance
Senior Service America, Inc.
8403 Colesville Road, Suite 1200
Silver Spring, MD 20910-3314

Dear Mr. Arbogast:

The purpose of this final report (Report Number 24-10-002-03-360) is to formally
advise you of the results of a Quality Control Review (QCR) the U.S. Department
of Labor, Office of Inspector General, conducted of the following audit performed
by Gorfine, Schiller & Gardyn, P.A. under the Federal Single Audit Act and Office
of Management and Budget (OMB) Circular A-133 (A-133):

      Senior Service America, Inc. Audit of Federal Awards under
      OMB Circular A-133 June 30, 2008

The objectives of the QCR were to determine whether: (1) the audit was
conducted in accordance with applicable standards and meets the single audit
requirements, (2) any follow-up work is needed, and (3) there are any issues that
may require management’s attention.

The major program included in our review was:

                                                   Catalog of Federal Domestic
                 Program                           Assistance (CFDA) Number
 Senior Community Service Employment
                                                                      17.235
 Program

Based on our review of the audit documentation related to the program above,
we determined that the audit work performed was acceptable and meets the
requirements of the Single Audit Act and A-133. No follow-up work is required
and there are no issues that require management’s attention.




                     Working for America’s Workforce
                                 U.S. Department of Labor – Office of Inspector General


If you have any questions concerning the results of the QCR, please contact
Robert J. Coyle, Director, Office of Audit Quality Assurance, at (202) 693-5226.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit


cc: Mr. Scott D. Rodgville, Director, Gorfine, Schiller & Gardyn, P.A.

   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
    Employment and Training Administration




                                         2                     Quality Control Review
                                                          Senior Service America, Inc.
                                                     Report Number: 24-10-002-03-360
